 



        SBA’S ROLE IN ADDRESSING


    DUPLICATION OF BENEFITS BETWEEN 

         SBA DISASTER LOANS AND 

    COMMUNITY DEVELOPMENT BLOCK 

                 GRANTS 



                  Report Number 10-13 

             Date Issued: September 2, 2010






                    Prepared by the 

              Office of Inspector General 

          U.S. Small Business Administration


            U.S. Small Business Administration
            Office Inspector General                       Memorandum
To:        James E. Rivera,                                    Date:   September 2, 2010
           Associate Administrator, Office of Disaster
           Assistance

From:      Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   Report on SBA’s Role in Addressing Duplication of Benefits 

           between SBA Disaster Loans and Community Development Block 

           Report No. 10-13 


           This report consolidates the results of findings from audits of the Small Business
           Administration’s (SBA) efforts to prevent duplication of benefits between SBA
           disaster loans and Community Development Block Grants (CDBG) for Iowa,
           Louisiana, and Mississippi. The objective of these audits was to determine
           whether SBA’s efforts to prevent duplicate disaster assistance were consistent with
           Federal Emergency Management (FEMA) guidance implementing the Stafford
           Act.

           In conducting these audits, we reviewed entries in SBA’s Disaster Credit
           Management System (DCMS), information in the Agency’s Centralized Loan
           Chron System, and information obtained from state and local government offices
           or title companies responsible for distributing CDBG funds to disaster victims in
           the states of Louisiana, Mississippi, and Iowa. We compared the duplicate benefit
           requirements of the Stafford Act, Small Business Act, FEMA regulations, SBA
           regulations, and SBA’s standard operating procedures to SBA’s process for
           managing duplicate benefits. Further, we interviewed officials from SBA’s Office
           of Disaster Assistance (ODA) located in headquarters and the Fort Worth
           Processing and Disbursement Center. We also interviewed officials from the
           Department of Housing and Urban Development’s (HUD) Disaster Program
           Office. To obtain an understanding of the states’ grant payment processes in
           Louisiana and Mississippi, we held discussions with officials contracted by these
           states to administer their CDBG programs. Additionally, we interviewed officials
           from the Iowa Department of Economic Development, Iowa Finance Authority,
           and various local organizations responsible for administering the grant programs
           in Iowa. The audits were conducted between May 2009 and May 2010 in
           accordance with Government Auditing Standards prescribed by the Comptroller
                                                                                  2

General of the United States and included such tests considered necessary to
provide reasonable assurance of detecting abuse or illegal acts.
We found that to prevent duplicate benefits, SBA recovered $643.8 million of
CDBG funds from the three states (Louisiana, Mississippi, and Iowa) and applied
them to pay down 19,449 fully-disbursed SBA disaster loans, reducing SBA loan
balances. Additionally, SBA applied $281.8 million of duplicate assistance from
CDBG funds to pay down undisbursed loan balances. However, these practices
were inconsistent with a FEMA regulation implementing the Stafford Act’s
prohibition on duplicate disaster benefits.

Under the FEMA regulation, agencies that are assigned a higher order in the
delivery sequence are expected to provide disaster assistance before assistance
from lower level agencies. FEMA has also issued guidance indicating that CDBG
grants have the lowest priority in the delivery sequence. Therefore, funds that
HUD could have used for additional CDBG awards were instead used to pay down
SBA loans to victims who had already received assistance and who SBA
determined had sufficient resources to repay their loans. This shifted
$925.6 million in primary assistance from SBA disaster loans that have to be
repaid to CDBG grants, which are not repaid, placing the financial burden on
taxpayers. It also reduced available grant money for disaster victims that did not
qualify for SBA disaster loans.

We recommended that for future disasters, SBA coordinate with HUD and FEMA
to formalize a memorandum of understanding, which defines the functions of each
agency so that its disaster assistance procedures are consistent within applicable
FEMA guidance. Additionally, SBA should coordinate with HUD to establish
better procedures to prevent duplicate benefits, including the development of a
duplication of benefits instructional guide to be incorporated into HUD’s
Information Toolkit provided to grantees. Lastly, SBA should modify its
regulations and the assignment of compensation section of the standard loan
authorization and agreement to be consistent with FEMA’s delivery sequence of
benefits, and cease using resources to perform duplicate benefit calculations
involving CDBG funds. SBA management generally disagreed with the report
findings and the OIG’s interpretation of the Small Business Act and Agency
regulations, partially agreed with two recommendations, and disagreed with the
remaining three recommendations.

BACKGROUND

The Federal Government provides disaster assistance funding through a variety of
agencies and programs. SBA’s Disaster Loan Program, which is administered by
ODA, is the primary Federal program for funding long-term recovery for private
sector and non-farm disaster victims, including home and business owners. SBA
                                                                                       3

provides physical disaster loans to fund repairs to damaged homes and business
facilities. SBA’s regulations provide that there must be reasonable assurance the
applicant can repay the loan, and the applicant must possess satisfactory character
and credit. Section 7(b) of the Small Business Act authorizes SBA to make such
disaster loans provided that the repairs or reconstruction is not compensated by
insurance or otherwise.

Section 5155 of the Stafford Act requires Federal agencies providing disaster
assistance to ensure that businesses and individuals do not receive disaster
assistance for losses for which they have already been compensated. An
individual receiving Federal assistance for a major disaster is liable to the United
States when the assistance duplicates benefits provided for the same purpose.

FEMA regulation, 44 CFR 206.191, establishes policies and procedural guidance
to ensure uniformity in preventing duplication of benefits. The regulation includes
a “delivery sequence” of disaster assistance provided by certain Federal agencies
and organizations. According to the regulation, the agency or organization that is
lower in the delivery sequence should not provide assistance that duplicates
assistance provided by a higher level agency or organization.

SBA regulation, 13 CFR 123.101(c), which was reissued after FEMA published its
regulation discussed above, states that applicants are not eligible for a home
disaster loan if their damaged property can be repaired or replaced with the
proceeds of insurance, gifts or other compensation. These amounts must either be
deducted from the amount of the claimed losses or, if received after SBA has
approved and disbursed a loan, must be paid to SBA as principal payments on
their loans.

In response to the Gulf Coast disasters and the Iowa floods, Congress appropriated
funding for the CDBG program as Disaster Recovery grants to rebuild the affected
areas and provide crucial seed money to start the recovery process. The grants,
which were intended to supplement disaster assistance provided by FEMA and
SBA, were available to states, units of general local governments, Indian tribes,
and insular areas designated by the President of the United States as disaster areas.
Guidance provided on HUD’s website instructed that grantees could use the
CDBG funds for housing, economic development, infrastructure and the
prevention of further damage to affected areas, if such use did not duplicate
funding available from FEMA, SBA, and the U.S. Army Corps of Engineers.

To receive CDBG benefits, the affected grantees (in this case the states) were
required to submit to HUD an action plan that described how they planned to use
the grant funds and the procedures that would be implemented to prevent
recipients from receiving duplicate benefits.
                                                                                                                  4


In several previous reviews,1 the OIG examined SBA’s efforts to prevent
duplication of benefits between the disaster loan program and HUD’s CDBG
program. Those reviews accepted SBA’s practice of reducing loan balances as an
appropriate control to prevent duplication of benefits and, unlike this report, did
not examine whether this practice was consistent with FEMA guidance.

RESULTS

In response to the Gulf Hurricanes of 2005 and the Midwest flooding in 2008,
SBA took the lead in working with the states to identify and recover duplicate
benefits. Although SBA did so because it thought it was acting in the best interest
of the Government to reduce duplicate benefits, these efforts resulted in
$643.8 million of CDBG funds being sent to SBA to pay down 19,449 fully-
disbursed SBA loans, and the undisbursed balance of 5,675 loans being reduced
by $281.8 million. The CDBG funds replaced SBA disaster assistance that had
already been approved to borrowers found to have sufficient resources to repay
their loans, contrary to FEMA’s duplicate benefit regulation. FEMA’s regulation
provides that disaster assistance by an agency that is lower in the delivery
sequence, such as HUD in this case, should not be used to duplicate assistance that
has already been provided by a higher level agency, such as SBA. As a result,
$925.6 million in CDBG funds were used to pay down or reduce SBA disaster
loans rather than to provide grants to other disaster victims with unmet needs who
may have lacked sufficient financial resources to obtain these loans. This also
shifted additional costs to the taxpayers because disaster loans are required to be
repaid and CDBG grants are not.2

FEMA regulation, 44 CFR 206.191, which implements the duplication of benefits
section of the Stafford Act, establishes a specific sequence for the delivery of
benefits that generally is to be followed when Federal agencies provide disaster
assistance. The delivery sequence specifies the following order in which a
program should provide assistance and the other resources that must be considered
before doing so:

       • Volunteer agencies’ emergency assistance programs;

1
    OIG Report 6-28, Preliminary Assessment of Controls over the Automated Coordination of Disaster
    Assistance Benefits Distributed by Mississippi Development Authority’s Grant Assistance Program,
    September 25, 2006; OIG Report 07-25, Duplicate Benefit Adjustments to Disaster Assistance Loans
    Associated with Housing and Urban Development Grants, May 15, 2007; OIG Report 9-09, Audit of
    Borrower Eligibility for Gulf Coast Disaster Loan, March 31, 2009.
2
    The OIG did not calculate these additional costs, and notes that a certain percentage of the disaster loans
    that were paid down or reduced as a result of the CDBG payments would have defaulted.
                                                                                                        5

        • Hazard and flood insurance;

        • FEMA Home Repair and Replacement;

        • SBA and Department of Agriculture disaster loans;

        • FEMA Individuals and Households Program; and

        • Other Federal, state and local government funds.

While HUD CDBG grants are not specifically listed in the regulation, guidance
since issued by FEMA considers these grants to be “other Federal … funds” that
follow SBA disaster assistance loans in the sequence of disaster benefits.3 SBA’s
Standard Operating procedure 50 30 6 reiterates FEMA’s delivery sequence, and
specifically states that CDBG funds are lower than SBA disaster loans in the
sequence of delivery.

FEMA regulations state that duplicate benefits can occur when any agency
provides assistance for a loss, which is the primary responsibility of another
agency that is higher in the delivery sequence. Each agency should, in turn, offer
and be responsible for delivering its program(s) without concern about duplication
with a program later in the sequence. Further, agency programs listed later in the
sequence are responsible for preventing duplication from programs listed earlier,
and thus are responsible for rectifying any duplication and recovering payments
from the disaster relief recipient.

However, 13 CFR 123.101 is inconsistent with FEMA’s delivery sequence
guidance concerning CDBG assistance. SBA’s regulation generally requires that
homeowners receiving compensation for their damaged properties after SBA has
disbursed loans for the same properties must send such compensation to SBA to
be used as principal payments on their loans. Additionally, the “assignment of
compensation” section of SBA’s Loan Authorization and Agreement requires
borrowers to remit duplicate grants or other reimbursement to SBA. These
requirements do not make an exception for HUD CDBG funds, which is
considered lower than SBA disaster loans in FEMA’s delivery sequence.

SBA believes that this regulation is consistent with the Small Business Act
prohibition on duplication of disaster benefits, which authorizes SBA to “make” a
disaster loan unless the damage is compensated by insurance or otherwise.
Although the Act states that SBA is not authorized to make a disaster loan for

3		
      Disaster Assistance - A Guide to Recovery Programs, FEMA, September 2005 and February 2009; and
      National Disaster Housing Strategy Annexes, FEMA, January 16, 2009.
                                                                                    6

damage that is otherwise compensated, the statute is silent on the actions that SBA
should take if a potentially duplicate benefit is discovered after an SBA loan is
disbursed. The statute does not provide authority for SBA to ignore FEMA’s
delivery sequence regulation for disaster assistance and to use CDBG money to
reduce disbursed disaster loans.

In appropriation legislation that funded CDBG assistance for victims of the Gulf
Hurricanes and Midwest Floods, Congress directed HUD to prevent duplication of
benefits. In a series of Federal Register notices issued by HUD in response to
these appropriations, HUD emphasized the steps it planned to take to prevent
duplicative benefits. However, SBA advised that despite its repeated attempts to
coordinate with HUD, HUD and the state agencies in Louisiana, Mississippi and
Iowa made it clear that they intended to provide CDBG assistance regardless of
whether an SBA loan existed or not. Therefore, SBA believed its only choice was
to use these duplicative funds to repay or reduce existing SBA loans, consistent
with its regulation and interpretation of the Small Business Act. HUD officials did
not agree with SBA’s characterization of their discussion and stated that they did
not in any way imply that they intended to provide duplicative assistance.

SBA’s actions appeared to be driven by the approach taken in state recovery plans
that were submitted to HUD when applying for CDBG assistance. If the state
planned to reduce grant benefits by SBA loan amounts prior to disbursing the
grant, SBA’s designated role was to notify the state of the approved loan amounts.
However, if states disbursed the grants without first reducing the grant benefits by
the amount of the SBA loans, SBA was responsible for calculating and requesting
remittance of the duplicate benefits to be recovered from CDBG recipients.
Consequently, SBA’s role varied based on the terms of the state recovery plans.
For example, SBA did not take the lead in computing duplicate CDBG benefits
from Alabama, Texas, and Florida, but did for Mississippi, Louisiana, and Iowa.
Therefore, CDBG funds in the former three states were not used to pay down
disbursed SBA loans and to reduce the balances of undisbursed loans.

Under FEMA’s duplication of benefits regulation, agencies and organizations that
are considered lower in the delivery sequence are responsible for preventing
duplicate benefits. Therefore, it is HUD’s responsibility to ensure that state action
plans that are submitted in order to receive CDBG funding appropriately assign
responsibility for identifying and recovering duplicate benefits to the states, which
act as HUD’s agents in administering the CDBG funds. In discussing this issue
with HUD officials, they told us that they relied on SBA to determine the amount
of duplicate benefits because SBA did a good job of monitoring the duplicate
benefits process and the states had little experience in performing the duplicate
benefit calculation. However, they agreed there is a need for consistency in how
state plans describe SBA’s role, and that the plans should not assign responsibility
                                                                                                            7

to SBA for calculating and collecting duplicate benefits. HUD officials suggested
that because the states and localities that disburse the grants may not understand
how to correctly calculate duplicate benefits, it would be beneficial if SBA were to
provide an information package on such calculations to be included in HUD’s
instructional guide furnished to grantees.

Although SBA thought it was acting appropriately in pursuing duplicate benefits,
its efforts resulted in $925.6 million of CDBG funds being used to pay down debts
owed by recipients of SBA disaster loans or to reduce the undisbursed balances of
SBA loans. As a result, disaster loans to homeowners that SBA had determined
had sufficient repayment ability were reduced through the use of CDBG grant
funds that were intended to benefit lower income individuals. This money could
have been used to provide grants to other disaster victims with unmet needs and
who may have lacked the financial resources to qualify for an SBA disaster loan.

According to HUD officials, after CDBG program funds were depleted, it was
necessary to obtain congressional approval of an additional $3 billion
supplemental appropriation for Louisiana. The additional appropriation could
have been reduced by Louisiana’s share of the $925.6 million had the duplicative
grant assistance not been either remitted to SBA to pay down fully disbursed loans
or applied by SBA to reduce undisbursed loan balances.4 Going forward, we
recommend that SBA coordinate with FEMA and HUD to reach an agreement
with HUD about their respective roles to ensure that duplicate CDBG benefits stay
within the CDBG program.

Further, by managing the duplicate benefit process for HUD, SBA did not make
the most appropriate use of its resources. SBA established a grant team to identify
and resolve duplicate benefits associated with CDBG funds. The team obtained
grant information from the states, calculated the amount of duplicate benefits,
requested remittances of the duplicate benefits, and processed loan modifications
to reduce loan eligibility and to pay down the loans. While SBA will always need
to devote resources to identify potential duplication of benefits, ODA advised that
it could have eliminated seven positions if the states, as HUD’s grantees, were to
make the duplicate benefit calculations and if ODA ceased processing state
remittances and loan modifications. We estimate that SBA spent over $626,000 in
FY 2009 on these activities. This expenditure is not only unnecessary, but
constitutes administrative costs for which states administering CDBG benefits are
already reimbursed. CDBG appropriations language provides that a percentage of
the CDBG funds can be used to reimburse grantees for administrative costs

4
    We were unable to determine the exact amount of the $925.6 million that was associated with loans to
    Louisiana residents, but were able to positively identify that at least $443.6 million involved Louisiana
    residents. This would constitute funds put to better use as defined by the Inspector General Act of 1978,
    as amended.
                                                                                                              8

associated with disbursing CDBG funds. By making more appropriate use of
these resources on other disaster loan processing activities, we estimate that SBA
can save $2.1 million over the next 5 years. 5

Although we are not in a position to make recommendations to HUD or FEMA,
we have sent a copy of this report to these agencies and their Inspectors General.

RECOMMENDATIONS

    We recommend that the Associate Administrator for the Office of Disaster
    Assistance:

         1. Coordinate with FEMA and HUD to formalize a memorandum of
            understanding with HUD, which defines the functions of each agency in a
            manner that is consistent with FEMA’s duplicate benefits regulation and
            other applicable regulations.

         2. Coordinate with HUD to develop more appropriate procedures to reduce
            duplication of benefits, including the development of a duplication of
            benefits instructional guide to be incorporated into HUD’s Information
            Toolkit provided to grantees.

         3. Modify SBA’s duplication of benefit regulations to address FEMA’s
            delivery sequence of disaster benefits.

         4. Modify the “assignment of compensation section” of the Standard Loan
            Authorization and Agreement to be consistent with FEMA’s delivery of
            sequence regulation.

         5. Cease using resources to calculate duplication of benefits, pursue
            remittances, and modify loan balances involving CDBG funds so that the
            Agency can save salary costs associated with these activities.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On July 14, 2010, we provided ODA with a draft of the report for comment. On
August 13, 2010, ODA and SBA’s General Counsel submitted a formal response,
which is contained in its entirety in the Appendix to this report. Management

5
    The savings represent the salary costs of one GS-12, three GS-11s, and three GS-9s at the step 1 level,
    which were inflated by 2 percent each year for years two through five.
                                                                                  9

generally disagreed with the report findings and the OIG’s interpretation of the
Small Business Act and Agency regulations. Management also partially agreed
with recommendations 1 and 2, stating it would work with HUD to improve the
delivery of services to disaster victims. However, management did not indicate
whether it would identify a role for itself that was consistent with FEMA
regulations or develop more appropriate procedures to reduce duplication of
benefits. Additionally, management disagreed with recommendations 3, 4, and 5.
A summary of management’s comments and our response follows.

Comment 1 - SBA Does Not Concur With the OIG's Interpretation of the
            Small Business Act or Its Applicable Regulations.

Management Comment

Management advised that it is aware of FEMA’s regulation prescribing a sequence
of delivery of disaster assistance, and that agencies later in the delivery sequence
are required to ensure the assistance they provide does not duplicate prior Federal
assistance. However, management interprets the Small Business Act and its
regulations to “require SBA, after a loan is made or approved, to monitor the
borrower’s situation and to recover from the borrower all compensation for the
borrower’s injury received by the borrower from any source.” Based upon this
interpretation, management disagrees with the OIG’s finding in the report that
SBA acted inconsistently with the FEMA regulation when it recovered
$643.8 million of CDBG funds and applied them to pay down fully-disbursed
disaster loans.

OIG Response

OIG disagrees with management’s interpretation of the Small Business Act. The
Act provides in subsection 7(b)(1) that SBA is only authorized to “make” a
disaster loan if the borrower has not received compensation from another source
for the same damage. The statute, however, is silent on what action SBA should
take if it discovers duplicate compensation after a loan has been made, and,
accordingly, in our view, does not require SBA to use CDBG funds to pay down
disbursed disaster loans. SBA’s duplication of benefit regulation (13 C.F.R.
§ 123.101) also does not “require SBA, after a loan is made … to recover from the
borrower all compensation for the borrower’s injury received by the borrower
from any source.” In fact, the regulation provides an “exception” for amounts
received under the FEMA Individuals and Household Program (IHP), which is
lower in FEMA’s sequence of delivery regulation than SBA disaster loans.
Therefore, the OIG believes that neither the Small Business Act nor SBA
regulation provide authority to ignore the FEMA regulation.
                                                                                  10


Management Comment

Management takes issue with the OIG’s suggestion that SBA should have
“returned” to HUD the CDBG money it received rather than using these funds to
pay down disbursed disaster loans. SBA contends that this would be
impermissible under the miscellaneous receipts statute, 31 U.S.C. 3302(b). (Note:
SBA’s response erroneously refers to 31 U.S.C. § 3302(h), but there is no such
provision.)

OIG Response

Without determining whether the proposed action would have violated the
miscellaneous receipts statute, the OIG has revised the audit report to remove
language suggesting that SBA should have “returned” the CDBG funds.

Comment 2 - SBA Does Not Concur with the OIG's Recommendation that
            SBA Amend its Applicable Regulation, or with the Policy
            Underlying that Recommendation.

Management Comment

Management disagrees with the report’s recommendation that SBA should revise
its regulation so that it is consistent with FEMA guidance on the sequence of
disaster assistance delivery. SBA points out that its regulation requiring that
disaster loans be reduced by amounts recovered from compensation a borrower
receives from other sources has been in place for over 50 years, and that SBA is
entitled to deference in issuing regulations that interpret the Small Business Act.
Further, SBA contends that revising its regulations to be consistent with FEMA
guidance would promote duplication of benefits.

OIG Response

The OIG agrees that SBA is entitled to deference in issuing regulations that
interpret the Small Business Act, but disagrees with management’s comment. As
noted above in the OIG’s response to management comment 1, SBA’s duplication
of benefit regulation (13 C.F.R. § 123.101) provides an “exception” for amounts
received under the FEMA IHP, which is lower in FEMA’s sequence of delivery
regulation than SBA disaster loans. It is unclear why SBA’s regulation follows
the FEMA delivery sequence for IHP assistance, but not for CDBG assistance.
Regardless of the length of time that SBA’s regulation has been in place, however,
it is FEMA, and not SBA, that has authority under the Stafford Act to issue
regulations establishing government-wide rules to promote “uniformity in
                                                                                  11

preventing duplication of benefits.” Moreover, SBA’s duplication of benefit
regulation has a process to prevent a duplication of benefits if the borrower
receives IHP assistance, and there is no reason why the regulation could not
contain a similar process for CDBG assistance. Finally, the audit report
recommends that SBA work with HUD to establish better procedures to prevent
duplication of benefits, and with such procedures in place, a revision of SBA’s
regulation to conform to FEMA’s guidance would not promote duplicative
assistance.

Comment 3 - SBA Does Not Concur With OIG's Conclusion that It
            Constituted "Waste" of Taxpayer Funds to Use CDBG Funds
            to Repay or Reduce Prior Disaster Loans.

Management Comment

Management asserts that the OIG inconsistently argues it was improper and
wasteful for SBA to consider grants made by HUD and other agencies lower in the
FEMA delivery sequence, while at the same time asserting that SBA should have
prevented HUD and other agencies lower in the sequence from making grants to
SBA borrowers. Management does not believe it has the authority to tell HUD or
state agencies what grant decisions they should or should not make. Further,
management states that it attempted to coordinate with HUD to reduce duplication
of benefits, but had no choice but to use the CDBG money to reduce SBA disaster
loans after it became clear that neither HUD nor certain of the state agencies
disbursing CDBG grants were going to prevent duplication of benefits.

OIG Response

Management is incorrect in its analogy and portrayal of the OIG’s findings and
assertions in this regard. The OIG does not consider it improper and wasteful for
SBA to coordinate with HUD to provide it with the necessary information to
ensure that CDBG funds do not duplicate assistance provided by SBA’s disaster
loans. Indeed, the OIG believes SBA has an obligation to do so under the Stafford
Act and the Small Business Act. However, the OIG believes SBA should not have
accepted CDBG funds from the state agencies and used those funds to pay down
SBA loans, nor should it have reduced SBA loan balances on loans that had not
been fully disbursed. These actions resulted in CDBG funds replacing SBA
disaster assistance that had already been approved to borrowers found to have
sufficient resources to repay these loans, thereby shifting additional costs of
assistance to the taxpayers.

Further, the report does not assert that SBA should have prevented HUD and other
agencies lower in the sequence from making grants to SBA borrowers, nor do we
                                                                               12

believe that the Agency has the authority to prevent and dictate which grants HUD
can award. As discussed previously, FEMA regulation and other guidance clearly
place the responsibility on agencies lower in the sequence to prevent duplication
of assistance provided by programs listed earlier, and to rectify any duplication.
Further, contrary to SBA’s position, we do not believe that acting responsibly
means performing the tasks of another agency lower in the sequence when that
agency fails to prevent the duplicate benefit. If HUD was unwilling to prevent the
duplication of benefits, SBA should have sought assistance from FEMA and the
Office of Management and Budget, instead of attempting to collect the duplicate
benefits from HUD’s grantees (the state agencies). As management stated in its
response, SBA does not have authority to tell HUD or the state agencies what
grant decisions they should or should not make.” For the same reason, SBA does
not have authority to direct HUD or its grantees to remit CDBG funds to SBA to
offset disaster loans.

Comment 4 – The Draft Report is Inconsistent with Prior OIG Reports and
           Guidance.

Management Comment

Management expressed its surprise with the report findings and recommendations,
which it believes are inconsistent with earlier OIG reports that addressed the
recovery of duplicate payments and reduction of SBA loan balances.

OIG Response

The OIG understands SBA’s difficulty in reconciling the findings of the current
report with prior OIG findings from preliminary assessments and reviews of data
exchanges between SBA and various state agencies. We have added clarifying
language to the report acknowledging this. Based upon the limited scope of OIG’s
earlier work, no determination was made as to whether SBA’s use of CDBG funds
was consistent with FEMA’s regulations and guidance. Having now done so, and
having now concluded that SBA’s efforts were not consistent with these
regulations and guidance, the OIG believes it has a responsibility to report these
findings to management and present recommendations to resolve this discrepancy.
                                                                                      13

Comment 5 – SBA Does Not Concur With the Finding that Monitoring
            Duplication of Benefits in this Circumstance Constituted a
            Misuse of SBA Employee Resources

Management Comment

Management agreed that it allocated significant resources to identifying and
recovering duplicate benefits resulting from CDBG funds. However, it disagrees
that the resources could have been put to better use. Regardless of its
interpretation of the laws and regulations, management believed it needed to use
significant resources to address duplication of benefit issues. ODA disagrees with
OIG’s assertion that the OIG’s interpretation of the law would require no
resources to deal with duplication of benefits issues that will continue to exist
under any circumstances.

OIG Response

The OIG continues to believe that SBA could have utilized its resources more
appropriately and disagrees with management’s characterization of the OIG’s
comments. The report does not assert that SBA needs zero resources to deal with
the duplication of benefits issues. Based on information provided by ODA, two
employees would still be required to provide the necessary information to HUD to
ensure that CDBG funds do not duplicate assistance provided by SBA’s disaster
loans. This would represent a reduction from the nine employees that were still
assigned to perform grant work at the time of the audit. We have revised the audit
report to clarify this point.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action(s) taken
or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Office of Disaster Assistance
during the audit. If you have any questions regarding this report, please contact
me at (202) 205-7203 or Craig Hickok, Director, Disaster Assistance Group, at
(817) 684-5341.
APPENDIX I. AGENCY COMMENTS                                                                                              14




  "'
  §l
  •
   $"                        ,
                                 •
                                                          U .S. SMALL BUSiNESS ADMINISfAATlOO

  >                                                             WASHINGTON, D.C. 20416
      'f....·v/S
              . IOT'3\O.   ,<'


                                                                M EMORANDUM


          To:                        Debra S. Ritl
                                     Assistant Inspector General for Auditing

          From:                      James E. Rivera       t)fJL
                                     Associate AdruinistrMor for Disaster Assistance

                                     Sara Lipscomb       ~ ~ <;bL-
                                     General Counsel

          Subject:                   Draft Report on SBA's Role in Identitying Duplication of
                                     Benefits from Community Development Block Grants
                                     Project No. 9601 and Project No. 9701

          Date:                      AUgust 13,2010


           We have reviewed the July 14, 2010 Draft Report entitled "SSA's Role in Identifying
           Duplication of Benefits from Community Development Block Grants," which presents the
           results of findings from two oro audits ofSBA's efforts to prevent duplication of benefi ts from
           Community Development Block Grant (COSO) programs in Louisiana, Mississippi and Iowa.
           The stated purpose of the' audits was to detennine whether SSA complied with the Stafford Act
           requirement to ensure that businesses l and individuals did not receive duplicate disaster
           assistance from any other source, including grant awards. Because the audits had similar
           findings, DIG consolidated the results into one report.

           In swnmary, the Draft Report concludes that SBA improperly applied $925.6 million in post­
           disaster CDBG funds to pay down fully-disbursed SBA disaster loans or to decrease undisbursed
           SBA disaster loan balances. it states that SEA should have disregarded the grant-making
           activities ofHUD and State Agencies further down the delivery chain from SBA, and that SBA
           "wasted" its own disaster employees' time and resources by tasking them with reviewing HUD
           and State-made CDBa grants. Alternatively -- and inconsistently - ora argues that that SBA
           shoold have caused IIU D and sueh State agcnciC3 to refrain from making grunts 10 disaster
           victims who had already received an SBA disaster loan.




            1 Although the Slated purpose was      to   review both business and individual loans, the Draft Repon discusses only
            loans 10 homeowners.
APPENDIX I. AGENCY COMMENTS                                                                                    15




    DIG's interpretation ofthc Small Business Act and Agency regulations is inconsistent with long­
    standing Agency interpretation and practice. Furthcnnore, O IG's conclusions about what SBA
    "should have done" with duplicative COSO grant payments are internally inconsistent with each
    other; are inconsistent with OIG's own prior Reports and guidance to the Agency; and assume
    that SBA did not coordinate with HOD and State agencies (which it did) and that SSA can -- or
    should __ override grant-making decisions made by other state or federal agencies. Had ~IG's
    suggestions actually been implemented in the post-disaster circumstances which are the subject
    ofthe Draft Report, they would have sanctioned enonnous potential duplication of benefits and
    waste oftaxpayer funds.


             1.       SBA Docs Not Concur With OIG's Inter pr etation O f T hc Small Business Act
                      Or Its Applicable Regulation.

    We note as a threshold mailer that the Draft Report's find ings depend on the Inspector General's
    interpretation ofSBA's authority under the Small Business Act. Based on that interpretation, the
    Draft Report concludes that the Agency's differing and longstanding interpretation of the same
    statutory authority has resu1ted in "waste." This is a strained definition of''waste'' that depends
    on an interpretation of the relevant law that is inconsistent with fifty years of Agency
    interpretation and practice well known to and, indeed, supported by OIG prior to the Draft
    Report.

    We are, of course, aware of the duplication of benefits provisions of the Stafford Act and the
    delivery sequence outlined in FEMA's regulations that OIG relies upon in the Draft Report. In
    this respect, the key requirement of the Stafford Act and the applicable regulations is that a fair
    and reasoned detennination be made about the total dollar amount of a disaster victim's overall
    injury.2 This detennination then fonus the basis for each step of the delivery sequence 10 make
    sure that delivery of federal assistance stops when the assistance for the same injury has already
    been delivered. Under the FEMA d elivery sequence, agencies later in the delivery sequence are
    required to be aware of the full extent ofthe disaster victim's injury as well as the full amount of
    all prior federal assistance, so that they can decide whether further assistance from them is
    duplicative.

    At the same time, the Small Business Act and SBA's pertinent regulation require SBA, after a
    loan is made or approved, to monitor the borrower's situation and to recover from the borrower
    all compensation for the borrower's injury received by the borrower from any source. This is a
    basic feature (and indeed, a basic liInitation) on SBA's disaster lending authority: To ensure that
    a disaster loan is made solely for a victim's uncompensated injury, SBA is required to monitor
    borrower's sources of compensation. If a victim receives compensation before an SBA loan is
    made, the loan is approved only for the amount of the remaining, uncompensated injury; if



    1 We note that SBA worked closely with disaster victims t<l ensure that they were given the benefit of the doubt
     regarding calculation of the total amount of their injury, and thus regarding whether or not grant funds duplicated
     SSA assistance. Action to recover duplicate benefits was taken only when the total amount cfinjury involved was
     clear and thus the duplication of benefits was unambiguous.
                                                              2
APPENDIX I. AGENCY COMMENTS                                                                                  16




  compensation is received after a loan is disbursed or approved, such compensation is applied by
  SBA to reduce the loan balance or remaining available loan funds.

  The post-disaster issue which arose in Louisiana, Mississippi and Iowa was as follows:
  Notwithstanding the Stafford Act and the FEMA delivery sequence, in action plans approved by
  HUD, those States were prepared to disburse grant funds to disaster victims who had already
  received an SBA disaster loan for the same injury. By definition, this would have constituted
  duplication ofhenefits. This was so in spite ofSRA 's effnrt.~ In C'.oorninate wi th Them on Ihi.~
  topic. Consequently, SBA had a clear obligation under the Small Business Act, as discussed
  below, to remedy such duplication of benefits. SBA acted correctly and in conformity with ils
  clear and long-standing regulations when it did so.

  The prohibition against duplication of benefits has been an important principle in SBA programs,
  including SBA 's disaster assistance program, for over 50 years. Since 1958, Section 18(a) of the
  Small Business Act has mandated that SBA not provide benefits that duplicate the assistance
  provided by another department or agency. Since 1958, SBA's disaster assistance regulations
  have also stated that an SBA disaster loan must be reduced by amounts recovered from insurance
  orothersources. (Emphasis added.) See, 13 CFR § 123.7-8, 1959 ed. In 1981, C<Jngrcss
  amended Section 7(b)(J) of the Small Business Act to incorporate the Agency's longstanding
  interpretation and practice, specifically requiring that disaster loans be made only when the
  disaster victim's injury was ''not compensated by insurance or otherwise." (Emphasis added.)
  This statutory provision is clear, unambiguous and aU-inclusive. In accordance with this
  mandate, SBA 's current regulation, in effect in substantially the same form for at least 25 years,)
  makes clear that ''proceeds of insurance, gifts or other compensation must be deducted from the
  amount of the claimed losses, or, if received after SBA has approved and disbursed a loan, must
  be paid to SBA as principal payments on [the] loan." (Emphasis added.) 13 CFR § 123.101(c).

  Accordingly, SBA disagrees with 01G's finding in the Draft Report that SBA acted incorrectly
  when it recovered $643.8 million ofCDBG funds and applied them to pay down fully-disbursed
  disaster loans, thereby reducing SBA loan balances instead of"reruming" the funds to HUD.
  OIG asserts that the funds should have been returned to HUD so that HUD could have recycled
  tht: funds fur ulllt;r di:.wslc[ v i":IUU S. 4 Bul 010 idt:ntifi~ no provision or procedw-e ulllie Small
  Business Act or Ihe Miscellaneous Receipts statute [31 U.S.C. 3302(h)] for "return of grant
  funds" when another state or federal agency has chosen to make a grant to an existing SBA
  borrower. To the contrary, the Small Business Act, as interpreted by SBA, says just the


  100 page S of the Draft Report, 010 cites to the current version ofSBA' s longstanding regulation which is now
  codified at 13 CFR § 123 .10J{c) and emphasizes that the current version was ''issued in ]996 after FEMA issued its
  duplication of benefits regulation." As OJO knows, there wlIS a complete revision ofSBA's regulaTions in 19'96,
  with no intent to chaDge the underlying substantive detenninations ex""!'t as specifically identified. Thus, it is
  irrelevant that the 1996 recodification occurred after FEMA issued iTS regulation in 1999. The original version of
  SBA's regulation, codified at \3 CPR § 123.22, was issued in 1983. six years before FEMA issued its regulation.
  ~,48 Fed, Reg. 45225 (Oct 4, 1983).

  • oro fails 10 address whether HUD would have been able to recycl e returned grant flmds given the requirements of
  the Miscellaneous Receipls stalUle [3 \ U.S.C. 3302(h)), which states that an agency that receives money from any
  source shall deposil the money in the Treasury.
                                                           J
APPENDIX I. AGENCY COMMENTS                                                                    17




  opposite: It requires reduction of loan balances for compensation received by victims from all
  sources. If SBA had ignored its statutory responsibility under the Small Business Act and
  allowed HUD or the subject States to disburse dUplicative grant monies to SBA borrowers
  without requiring repayment of the SBA loans previously made to the same borrowers for the
  same injury, SBA would have violated th~ Small Business Act and there would have been an
  additional cost to the taxpayers because the borrowers would have received double federal
  assistance (in the fonn of a loan and a grant) for the same injury.

  Similarly, SBA also disagrces with OIG's finding that SBA acted incorrectly when it applied
  $281 .8 million of duplicate assistance from COBG funds to decrease undisbursed SBA disaster
  loan balances, thereby reducing SBA loan amounts instead of rejecting or returning these funds
  to HUO or the State agencies. SBA conununicatcd proactively with HUD and the involved State
  agencies as they were preparing to disburse CDBG funds for these disasters. Through these
  conununications, SBA learned that the States were not prepared to reduce the amount of the
  grant monies disbursed to SBA borrowers by the amount of the previously-approved SBA loans
  and to re-direct these C08G funds to other disaster victims. In view of this, SBA had no choice
  under the Act and the applicable regulation but to make arrangements to apply such funds to
  reduction of these victims' approved S8A loans.

  In sum, SBA's actions prevented the outflow of$925.6 million in duplicate benefits. IfSBA had
  allowed its borrowers to receive and retain grant funds as compensation for the very same injury
  for which the borrower had already received federal assistance in the form of II loan for the full
  amount of the disaster injury, SBA would have expected 01G to criticize the Agency for waste
  and SBA would have agreed with tbat conclusion. It cannot be over-emphasized that in this
  post-disaster process, SBA undertook in each instance to determine the full amount oflbe
  victim's injury and (to the full extent pennitted by statute) authorized II loan for that injury. In
  the subject instances, so far as the Agency was aware, neither HUD nor the State agencies
  disagreed with SBA's determination oft1i.e extent of injury; nor did they assert that an additional
  grant was appropriate because the victim's injuries had not yet been fully compensated.
  Accordingly, for any such victim also to receive a grant for the same injury would have been, by
  definition, duplicative.


         2.      SBA Does Not Con.cur With OIG's Recommendation that SBA Anlcnd Its
                 Applicable Regulation, Or With The Policy Underlying That
                 Recommendation.

  In the Draft Report, OIG recommends that SBA modify 13 CFR § 123.101(c) "to address
  FEMA's delivery sequence of disaster benefits." OIG states that under the FEMA sequence,
  each agency theoretically can deliver its benefits ''without concern about d uplication with II
  program later in sequence." This is because agencies later in the sequence are "responsible for
  preventing duplication from programs listed earlier," and thus are responsible for "rectifying"
  any duplicative payments. [Draft Report, p. 5J OIG thus concludes that it is essentially none of
  SBA's business what other agencies lower in the delivery sequence do with their monies.
  lndeed, OIG asserts that the Small Business Act "does not provide authority" for SBA 10 reduce

                                                   4
APPENDIX I. AGENCY COMMENTS                                                                                     18




or repay loans out of grants made by agencies lower in the FEMA delivery sequence, because it
does not explicitly state that a subsequent disaster grant made after an SSA loan is an appropriate
"o ther source" for repayment. [Draft Report, p. 6] DIG therefore asserts that SSA's regulation
should be modified to provide that SSA will ignore an benefit decisions made by agencies later­
in-time in the FEMA delivery sequence behind SBA.

SBA disagrees very strongly with this statutory interpretation and recommendation to modify the
regulation. As set forth abovc, the statute has long required SBA to make loans only in the
amount of uncompensated loss, and that it is to take account of compensation received from all
"other sources." The Agency long ago clarified the provision in its regulations, and requires that
" procceds of insuriUJce, gifts or other ~mpensation must be deducted from the amount of the
claimed losses, or, if received after SEA has approved and disbursed a loan, must be paid to SBA
as principal payments on [the] loan." (Emphasis added) This regulation makes clear, and
SBA's practice has been, that it will look to all sources ofa disaster victim's pre and post-loan
compensation in order to cnsure that no duplicative federal assistance is provided.

It is a bedrock principle of administrative law tbat an agency has authority to interpret its
authorizing statute and to provide detail for implementing the statute's requirements. SSA's
reguJation reflects SBA's longstanding interpretation of the Small Business Act. An agency's
interpretation of its statutory authority as expressed through regulations properly promulgated
under the Administrative Procedure Act is afforded deference by the courts. Chevron USA.,
Inc. v. Natural Resources Defense Council, Inc., 467 U .S. 837 (1984).

DIG has not demonstrated that SBA 's interpretation of the Small Business Act is unreasonable.
SBA is forced to conclude, however, that the DIG interpretation is unreasonable and ill­
considered. Significantly, ifSSA were to modify the regulation as DIG rccommends, it would
lead to waste and possibly abuse in SBA's disaster assistance program. This is so because SBA
would be forced to tum a b lind eye to benefits received by the disaster victim after the SBA
disaster loan had been approved or disbursed - even if the SBA were aware of these duplicative
benefits and even if those benefits are in excess ofthe amount ofthe victim's injury as
determined by SBA. Under tbe D IG interpretation, SBA could not reduce the amount of an.
approved disaster loan if the disaster victim, prior to disbursement of the loan, received a
recovery in tbe fonn of a state-funded grant, a gift, or a tort claim payment, for example. SBA
would be forced to disburse the duplicative funds, knowing that tbe disaster victim had already
been compensated for the same injury. Similarly, under the DIG interpretation, SBA could not
require a borrower to use the proceeds of any such recovery received after disbursement of the
disaster loan to pay down the loan. Under the DIG's interpretation, SBA would have to stand by
while a disaster victim retained both a loan and a grant for tbe same injury. This is precisely the
duplication of benefits which the Small Business Act, the Stafford Act and the FEMA delivery
sequence are intended to prevent. s




 l Tltis is panicularly re levant in lig ht of expected duplicate benefit recoveries by SBA horrowers from the BP
 Deepwater Oil Spill Compensation Fund.
                                                            5
APPENDIX I. AGENCY COMMENTS                                                                     19




         3.      SBA Does Not Concur With OIG's Conclusion T hat It Constituted "Waste"
                 Of T axpayer Funds To Use CDBG Funds To Repay Or Reduce Prior
                 Disaster Loans.

  SBA believes it would be grossly wasteful to allow the above-referenced potential duplicative
  payments -- and windfall - to occur. Therefore, if a disaster victim already received federal
  assistance in the fonn of an SBA loan for his or her injury, and if the victim then receives a
  duplicative federal grant for the same injury, SBA captures the grant funds and repays the loan
  out of those funds. The net effect of this process is to transfonn a disaster victim in this situation
  from a borrower to a grantee.

  OTO asserts that this is "improper," because borrowers have the ability to repay a loan but
  grantees are presumably are of lower income and could not qualify for a loan. For this reason,
  010 claims, the SBA should not have "allowed" other agencies to give grants to borrowers, thus
  transfonning them to graniteS instead of borrowers.

  Of course, in the same Draft Report, 010 also argues that it was improper and wasteful for SBA
  even to consider what grants were being made by HUD and other State agencies lower in the
  FEMA delivery sequence than SBA. But at the same time, and frankly inconsistently, DIG
  asserts that SSA should somebow have prevented HUD and such other agencies from making
  these grants to existing SSA borrowcn;, so that such funds could be "put to better use to provide
  grants to other disaster victims with unmet needs and who may lack the resources to qualify for
  an SBA disaster loan." [Draft Report, p. 1]

  SBA does not have authority to tell HUD or these State agencies what grant decisions they
  should or should not make. And in this instance, HUD and these State agencies made it clear
  they intended to make grants to these existing SBA borrowers. HUD and these State agencies
  presumably decided that all reci pients were eligible to receive these funds. The issue was
  therefore not whether these funds should have been put to a ''beuer'' usc. The sole issue was
  what SBA was to do in the face ofthis duplicative assistance.

  The Draft Report suggests that SBA could have coordinated better with HUD and the State
  agencies to avoid this duplication of benefits. As OTO is well aware, SBA did confer with HUD
  and the involved State agencies to avoid duplication of benefits. In this respect, SBA agrees with
  the statement in the Draft Report that, "SBA's role [in addressing COBO duplicate benefits]
  varied based on the tenns of the state recovery plans." This was because certain state grant
  programs were clear and well-planned to avoid duplication of benefits. Such states worked with
  SBA to share information about the total amount of disaster victims' injury, and limited their
  grant programs to ''unmet needs" only. Those states refrained from providing duplicate benefits
  to disaster victims who had already received an SBA disaster loan equal to the full amount of the
  victim's ascertained injury.

  In spite of SBA's efforts to coordinate, HUD and the State agencies in Louisiana, Mississippi
  and Iowa made it clear that they intended to provide duplicative assistance. Repeatedly, they
  were made aware ofSBA's prior assistance and its calculations of loss and injury. BUI contrary

                                                    6
APPENDIX I. AGENCY COMMENTS                                                                              20




   to the OIG assertions in the Draft Report, HUD was not prepared to prevent a duplication of
   benefits in the Louisiana, Mississippi and Iowa programs, in spite of SBA 's repeated efforts to
   coordinate with HUD to prevent such potential duplication. 6 In other words, the states made
   clear that these grants were going to be made and that duplicative benefits were going to be
   awarded. The only coordination they would provide was regarding disbursement of the actual
   grant funds, once the grants were made. Accordingly, SBA's only choice was to ignore such
   duplicative benefits or to act responsibly and in accordance with the Small Business Act and its
   own regulations by using these duplicative funds to repay or reduce existing SBA loans.

   Thus, the post-disaster events which actually occurred in Louisiana, Mississi ppi and Iowa
   demonstrate the fundamental problem with OIG's analysis and conclusions: OIG asserts that
   SBA is supposed to "ignore" decisions made by agencies further down in the delivery sequence,
   because it is "their job" (not SBA's) to avoid duplication of benefits. But as these events show,
   in spite of SBA's coordination with them, such other agencies did not avoid duplication of
   benefits. SBA firmly believed - and continues 10 believe - that ignoring known intended
   duplication of bene fils is inconsistent with the Small Business Act. For that reason, when HUD
   or a Stale agency made clear that il intended to make a grant to a disaster victim who already had
   an existing or approved SBA loan for the same injury, SBA treated such funds as compensation
   and used such funds to repay or reduce the loan as il was required to do.

   Fortunately, OIG's unusual interpretation of SBA's statutory authority is advisory only for
   purposes of its audits and is not the official Agency interpretation of these provisions for
   programmatic purposes. While we have considered the OIG's new interpretation, we strongly
   disagree with it and, therefore, with the Inspector General's recommendations in the Draft
   Report that follow from this interpretation. Of course, the Agency is and has been willing to
   work wi th HUD to im prove the delivery of our respective services to disaster victims to ensure
   that we are not duplicating their efforts or assistance. We are in agreement with the Draft Report
   recommendations to the extent they are recommending such course of action.


           4.       The Draft Report Is Inconsistent With Prior OIG Reports and Guidance.

   We were particularly surprised by the findings and recommendations in the Draft Report because
   the matters under review in these audits have been the subj ect of numerous discussions with 010
   since the inception of the 2005 Gulf Coast Hurricanes CDBG programs. In fact, the process used
   by SBA to prevent duplication of benefits was established, in large part, due to suggestions and
   recommendations from OIG. OIG and ODA had frequent meetings 10 formulate and outline the
   policies and procedures for addressing duplication of benefits and detennining loan eligibility,
   including the requirement that grant funds be used to pay down SBA loans. As 010 is aware,
   SBA executed a computer matching memorandum of understanding (MOU) with both Louisiana
   and Mississippi which deal t with thc usc of information to preclude a duplication of benefits. All

   6 As ODA was made aware of each Slate grant program, e fforts were made to inclooe mm in meetings. ptanning
   and decisions, and HUD declined repeatedly, contrary to the assertions made in the Draft Report. OIG Report06-
   28, discussed below, acknowledges the difficulties SBA had in obtaining mm participation in the duplication of
   benefits review process.
                                                          7
APPENDIX I. AGENCY COMMENTS                                                              21




  the members of the SSA Data Integrity S oard, including the then Inspector Oeneral, approved
  the computer matching agreements.

  Additionally, on September 25, 2006, the Assistant Inspector General for Auditing issued Report
  No. 06-28 entitled "Preliminary Assessment of Controls over the Coordination of Disaster
  Assistance Benefits Distributed by Mississippi Development Authority's Oran.t Assistance
  Program." The objective of the review, as stated by OIG, was ''to develop a preliminary
  understanding of SBA '8 internal controls and related capability to accurately identify, obtain
  reimbursement for, and reduce SBA disaster loans that duplicate HUD grant benefits
  administered by MDA." (Emphasis added.) The Report stated that "to comply with the Stafford
  Act and the Small Business Act, SBA must be able to identify disaster loans tbat may be
  impacted by grant assistance and take appropriate action to ensure that individuals do not receive
  assistance for any losses for which they have been compensated by other program sources." The
  Report further stated that to comply with the Stafford Act and the Small Business Act, "SSA and
  MDA will have to regularly exchange data to identify individuals applying for both types of
  benefits, detect duplicate payments that may have occurred and appropriately reduce SSA loan
  balances o r recover duplicate payments." (Emphasis added.) In the current Draft Report, DIG
  is now criticizing SSA 's use of the very procedure that OlG reviewed in its earlier Report 06-28
  and urged SSA to implement expeditiously. In the Draft Report, OIG is now stating that the
  reduction of SSA loan balances and recovery of duplicate payments under the process discussed
  in Report 06-28 was incorrect and resul ted in waste. OOA finds it hard to reconcile the findings
  of the current Draft Report with the findings and recommendations in Report 06-28. 010 fails to
  even acknowledge these divergent findings in its Draft Report.


         5,      SBA Docs Not Concur With The F inding T hat Monitoring Duplication Of
                 Benefits In This Circumstance Constituted A Misuse ofSBA Employee
                 Resources.

  On the matter of allocation of ODA resources, while ODA agrees that it "allocated significant
  resources to identifying and recovering duplicate benefits resulting from CDBO funds," it
  disagrees with OIG's finding in the Draft Report that the resources "could have been put to better
  use." ODA used staff resources to prevent a duplication of benefits as required under applicable
  law and by the authorized computer matching agreements. Regardless of the interpretation of
  the laws and regulations, ODA needs to usc significant resources to address duplication of
  benefits issues. Based on the actual COBO program req uirements, aDA must use significant
  resources in order to extract the infonnation that needs to be shared to evaluate CDBO programs,
  potential recoveries, and possible duplication of benefits. ODA disagrees with OIG's assertion
  that OIO's interpretation of the law would require no resources to deal with duplication of
  benefits issues that will continue to exist under any circumstances.




                                                  8
APPENDIX I. AGENCY COMMENTS                                                                22




        6.     Conclusion

 In sum, SBA believes its interpretation of the Small Business Act is correct and in accordance
 with its longstanding practice. SBA also believes its implementing regulations are correct and
 require no modification. And SBA finnly maintains that aDA did not waste any of its resources
 and acted properly and in accordance with applicable law by applying known duplicativc
 assistance from HUD and State agencies to reduce outstanding or undisbursed SBA disaster
 loans. But for aDA's diligence, $925.6 million in taxpayer funds would have been disbUl'Sed in
 duplicative benefits to SBA borrowers and not recovered by SBA as required by law. SBA is
 unwilling to implement policies or recommendations which require it to ignore funding decisions
 by agencies lower in the delivery sequence; or alternatively, which require it to tum a blind eye
 to known duplicative benefits being disbursed to SBA borrowers in spile ofSBA's repeated
 consultations with involved agencies to avoid such duplication.




                                                 9
